               TESTIMONY OF ROGER VIADERO

                      INSPECTOR GENERAL

     U. S. DEPARTMENT OF AGRICULTURE – OFFICE OF

                      INSPECTOR GENERAL

                           BEFORE THE

           U.S. HOUSE COMMITTEE ON COMMERCE

   SUBCOMMITTEE ON TELECOMMUNICATIONS, TRADE,

                 AND CONSUMER PROTECTION

                         MARCH 16, 2000




Thank you, Mr. Chairman and members of the committee. I am

pleased to be here today to speak with you about the Office of

Inspector General’s recommendations to the Rural Utilities Service

(RUS). With me today is James R. Ebbitt, Assistant Inspector

General for Audit. Before I begin my testimony, I would like to

submit two recently issued audit reports for the record.
I share your concern that rural America be made a full partner in

the information age. To that end, two reports issued by my office

describe options for the RUS Administrator to stimulate rural

investment and make better use of RUS loan funds. Funds made

available through implementation of the reports’ recommendations

could be used to better connect rural communities to rapidly

developing information technologies.



ELECTRIC BORROWER INVESTMENTS



We audited RUS electric program borrowers to determine the

extent of their investment activities and the degree to which the

borrowers invested in rural America. We discovered that RUS

electric borrowers have not become major players in financing

America’s rural infrastructure, despite the fact that these borrowers

hold almost $11 billion in total investments. Disappointingly, only
one-half of 1 percent of this amount -- about $61 million -- is

actually invested in rural America.



The Northern Virginia Electric Cooperative (NOVEC) provides a

good example. NOVEC has borrowed about $129 million from

RUS and holds $128 million in investments, none of which is

classified as rural development. Among the electric coop’s

investments is a subsidiary called NOVASTAR – a company that

is partnering with DISH Network and DIRECTTV to sell premium

satellite TV services to the Northern Virginia and Metropolitan

Washington, DC areas. I want to emphasize that NOVEC is not

violating any laws by investing in satellite TV for a metropolitan

area. However, I believe that encouraging RUS borrowers to

invest more heavily in rural America makes good sense. The same

dollar that provides satellite TV to the area right here on Capitol

Hill could be used to bring much needed services to underserved

communities in rural areas.
Unfortunately, RUS electric program borrowers, on their own,

have not invested heavily in rural America. Instead, investment

dollars are used for such things as money market certificates,

stocks and bonds, and mutual funds. We recommended that RUS

develop and implement a strategy to encourage electric borrowers

to use some of their $11 billion portfolio to make discretionary

investments in rural America. RUS has agreed to develop and

implement policies and procedures to strongly encourage

borrowers to meet the intent of Congress. This new strategy could

promote investment practices to ensure the delivery of local

television programming to subscribers of satellite television in

rural markets. Through increasing investments for rural access to

telephones, computers and the Internet, RUS electric borrowers

could help close the “digital divide.”
TELEPHONE BORROWERS WHO DO NOT NEED

ASSISTANCE



In another recent audit, we identified 434 RUS telephone program

borrowers with loan balances totaling $1.9 billion that appear to be

in good enough financial condition to satisfy their credit needs

from their own financial organizations or from other credit sources.

Our findings echo and expand on conclusions reported by the

General Accounting Office in a January 1998 report that detailed

options to make the RUS telephone loan program more effective

and less costly. GAO reported that some borrowers may retain

loans longer than needed, and are therefore able to take advantage

of the favorable terms provided by the Government. RUS

continues to incur interest and other administrative costs in

servicing the accounts of its financially healthy borrowers.
The law requires RUS to encourage and assist rural telephone

systems to achieve the financial strength needed to enable them to

satisfy their credit needs from their own financial resources or

from other sources. Our trend analysis of key financial ratios

showed steady improvement in the telephone loan portfolio, and

that half of RUS telephone borrowers are in strong financial

condition. However, RUS does not have discretion to refuse a loan

because a borrower is in strong financial condition, and the Rural

Electrification Act is silent regarding loan graduation – that is

requiring borrowers to move to private credit when they are

financially able.



We recommended that RUS work with Congress to clarify policy

regarding loan graduation and requiring financially strong

borrowers to obtain credit from commercial sources. RUS

disagrees with our recommendation.
RUS should seek clarification about loans to borrowers who do not

need Government assistance. As decisions are made about funding

rural America’s move into the information age, it is important to

remember that over half the RUS telephone loan borrowers may

not really need government assistance. The money freed up

could, perhaps, be better used in other ways. For example,

preserving and enhancing access to local and network television

signals is important to rural America’s economy. As enunciated in

H.R. 3615, local television, with its mix of crop reports, local

news, weather reports, public service announcements, and

advertisements for local business, is vitally important for rural

development efforts.



According to the National Telecommunications and Information

Administration, Americans living in rural areas are lagging behind

that national average in computer and Internet access, regardless of

income level. At some income levels, those in urban areas are 50
percent more likely to have Internet access than those earning the

same income in rural areas. The $1.9 billion currently loaned to

telephone program borrowers who do not need federal assistance

could go far in closing the “digital divide.”
SUMMARY



My office has identified two potentially important options for

increasing the effectiveness of RUS loan programs. Electric

program borrowers hold about $11 billion in investments that

could be used to build technological infrastructure for rural

America. Telephone borrowers, who could likely finance their

operations privately, owe the Government $1.9 billion – money

that could, with appropriate authority, be used to foster access to

technology and the electronic media.



We are currently working on another audit that will address

additional opportunities for RUS to increase its efficiency and,

thus, its contribution to rural America. Thank you for inviting me

here today to talk about our recommendations to RUS.
